            DEPARTMENT OF
              HEALTH AND
            HUMAN SERVICES




      Office of Inspector General


FY 2010 Online Performance Appendix
The FY 2010 Online Performance Appendix is one of several documents that fulfill the
Department of Health and Human Services’ (HHS) performance planning and reporting
requirements. HHS achieves full compliance with the Government Performance and Results
Act of 1993 and Office of Management and Budget Circulars A-11 and A-136 through the HHS
agencies’ FY 2010 Congressional Justifications and Online Performance Appendices, the
Agency Financial Report, and the HHS Citizens’ Report. These documents are available at
http://www.hhs.gov/budget/docbudget.htm.


The FY 2010 Congressional Justification and accompanying Online Performance Appendices
contain the updated FY 2008 Annual Performance Report and FY 2010 Annual Performance
Plan. The Agency Financial Report provides fiscal and high-level performance results. The
HHS Citizens’ Report summarizes key past and planned performance and financial information.
                 Message from the Inspector General

Dear Reader:

I am pleased to present the fiscal year (FY) 2010 Online Performance Appendix to accompany
the U.S. Department of Health and Human Services’ (HHS) Office of Inspector General (OIG)
Justification of Estimates to Appropriations Committees. Since its establishment in 1976, this
office has consistently achieved commendable results in fulfilling its mission to protect the
integrity of HHS programs and the health and welfare of HHS program beneficiaries.

OIG’s staff of more than 1,500 professionals carries out this mission through a nationwide
network of audits, evaluations, investigations, and enforcement and compliance activities. Our
mission encompasses the more than 300 programs administered by HHS. In conformance with
the terms of our mandatory funding streams, we direct the majority of our resources toward
safeguarding the integrity of the Medicare and Medicaid programs and the health and welfare of
their beneficiaries. Consistent with our responsibility to oversee all departmental programs, we
direct our discretionary resources to ensure the efficiency and effectiveness of HHS’s other
programs and management processes, focusing on key issues such as food and drug safety,
conflict of interest and financial disclosure policies, oversight of HHS discretionary programs,
the awarding and administration of contracts, and grants management.

As HHS programs and operations grow in size, scope, and complexity it is essential that they
are simultaneously protected against threats of fraud, waste, and abuse. In FY 2008, the most
recent fiscal year for which OIG performance data is available, OIG’s contributions to
safeguarding HHS programs from threats of fraud, waste, and abuse and to promoting
economy, efficiency, and effectiveness in HHS programs included:

   •   $2.35 billion in HHS receivables were court ordered or agreed to be paid through civil
       settlements that resulted from cases developed by OIG investigators;
   •   $1.33 billion in audit recoveries were agreed to be pursued by HHS program managers
       as a result of OIG audit disallowance recommendations;
   •   the return on investment measuring the efficiency of OIG’s health care oversight efforts
       continued its trend of increasing returns and reached $17 to $1 in the reporting period
       ending in FY 2008; and
   •   HHS program managers accepted and agreed to implement 85 of OIG’s quality and
       management improvement recommendations.

The performance information in this report describes OIG’s accomplishments in several key
aspects of measuring organizational impact. At the time of this report, there are no known
weaknesses in the accuracy, completeness, or reliability of the information used to develop it.




                                             Daniel R. Levinson
                                             Inspector General
                              Office of Inspector General
                    Fiscal Year 2010 Online Performance Appendix

Table of Contents                                                                                           Page
American Recovery and Reinvestment Act ......................................................... 1

Summary of Targets and Results ........................................................................ 2

Performance Detail.............................................................................................. 3

Agency Support for HHS Strategic Plan.............................................................. 9

Full Cost Table for OIG ....................................................................................... 11

Summary of Findings and Recommendations
 from Completed Program Evaluations............................................................... 13

Data Source and Validation................................................................................. 13

Slight Deviations between Targets and Actual Results ....................................... 14

Discontinued Performance Measures ................................................................. 14

Disclosure of Assistance by Non-Federal Parties ............................................... 14
                   American Recovery and Reinvestment Act

The American Recovery and Reinvestment Act (Public Law, 111-5, “ARRA”) was signed into
law by President Barack Obama on February 17, 2009. It is an unprecedented effort to
jumpstart our economy, create or save millions of jobs, and put a down payment on addressing
long-neglected challenges so our economy can thrive in the 21st century. The Act is an
extraordinary response to a crisis unlike any other since the Great Depression, and includes
measures to modernize our nation’s infrastructure, enhance energy independence, expand
educational opportunities, preserve and improve affordable health care, provide tax relief, and
protect those in greatest need.

The OIG received $17 million in ARRA funding for general oversight of HHS’ ARRA-related
expenditures. Additionally, OIG received $31.3 million in supplemental funding through ARRA to
address budgetary shortfalls for funding OIG’s Medicaid fraud and abuse activities.

More information on the ARRA programs in OIG and other HHS agencies can be found at
http://www.hhs.gov/recovery.




                                               1
                     Summary of Targets and Results

                                      Percent of Targets    Total
Fiscal    Total      Targets with                                     Percent of
                                         with Results      Targets
Year     Targets   Results Reported                                  Targets Met
                                          Reported          Met
2007       3              3                 100%             3          100%
2008       3              3                 100%             3          100%
2009       3              0                  0%               0          0%
2010       3              0                  0%              0           0%




                                        2
                                   Performance Detail

The OIG Online Performance Appendix includes three measures that express significant
aspects of OIG’s progress in accomplishing its mission of combating fraud, waste, and abuse
and promoting economy, efficiency, and effectiveness in HHS programs and operations. These
performance measures are:

       (1) a 3-year moving average of expected recoveries resulting from OIG health care
           oversight,
       (2) a 3-year moving average of the return on investment resulting from OIG health care
           oversight, and
       (3) the number of accepted quality and management recommendations.

OIG’s performance measures reflect its interdependence and collaboration with a network of
oversight and enforcement partners at all levels of government. For example, OIG’s
investigators and attorneys work closely with the Department of Justice (DOJ), State Medicaid
Fraud Control Units, and local law enforcement to develop cases and pursue enforcement
actions. As a result of these working relationships, OIG’s performance measures for expected
recoveries and return on investment are affected by the external factors impacting our partner
agencies. For example, DOJ’s resource constraints and prosecutorial discretion affect the
pursuit of criminal and civil enforcement actions in cases investigated and referred by OIG.

Similarly, OIG’s impact o the economy, efficiency, and effectiveness of HHS programs and
operations through audits and evaluations depends on implementation of OIG
recommendations by program managers and policymakers. Although OIG’s reports include
findings and recommendations intended to achieve cost savings or program improvements, OIG
does not have the authority to implement the corrective actions it recommends. Instead, OIG
recommendations inform Congress and HHS program officials of potential corrective actions
that may be taken to address the vulnerabilities OIG observed.

OIG reports here the number of quality and management improvement recommendations
accepted by HHS program managers for implementation. When OIG makes a recommendation
to disallow costs or pursue administrative or policy improvements, HHS program managers
have a fixed period of time to concur or nonconcur with each recommendation. However, the
implementation of those recommendations may be affected by the availability of resources for
implementation and other factors. As a result, some OIG recommendations are accepted but
not implemented.

Summaries of OIG’s implemented and unimplemented recommendations are reported in the
Semiannual Report to Congress and the Compendium of Unimplemented OIG
Recommendations reports, which are available in the Publications section of the OIG Web site
at http://www.oig.hhs.gov/publications.asp.




                                               3
      Performance Measures for “Expected Recoveries” and “Return on Investment”

      Summary of “Expected Recoveries” and “Return on Investment”

      OIG expected recoveries illustrate the direct financial benefits to the Government that result
      from OIG’s work. Expected recoveries include:

          •   audit disallowances that HHS program management has agreed to recoup;
          •   investigative returns from successful prosecutions, court-ordered restitution, and out-of-
              court settlements; and
          •   administrative enforcement actions, e.g., Corporate Integrity Agreements (CIA).

      Once OIG determines expected recoveries, it calculates various return-on-investment
      estimates. The return-on-investment measures are calculated as the ratio of expected
      recoveries to OIG’s operating costs, which yields financial benefit to the Government for funding
      OIG oversight activities. For example, a return on investment of $10:$1 means that the
      Government expects to receive $10 in direct financial recoveries for each $1 invested in OIG.

      For both performance measures (expected recoveries and return on investment) performance is
      reported using a 3-year moving average. This methodology accounts for the inherent
      unpredictability in audit and investigations outcomes and the multiple years between the
      initiation of an OIG audit, evaluation, or investigation, and its resolution and the recovery of
      funds. As a result of the multiyear duration and effects of external factors inherent in OIG’s
      oversight activities, there are often significant year-to-year variances in reported program
      outcomes. The 3-year moving average accounts for this variability and provides a more
      accurate depiction of results over time.

      Performance Reporting for “Expected Recoveries” and “Return on Investment” 1

               Measure                  FY                   Target                         Result
1.1.1: Three-year moving average of                                                           TBD
                                        2010                 $3,020
expected recoveries resulting from                                                       October 2011
OIG's health care oversight. (Dollars                                                         TBD
in millions) (Outcome)                  2009                 $3,470
                                                                                         October 2010
                                                                                            $3,268
                                        2008                 $2,623
                                                                                       (Target Exceeded)
                                                                                            $2,835
                                        2007                 $2,460
                                                                                       (Target Exceeded)
                                                                                            $2,678
                                        2006                 $2,580
                                                                                       (Target Exceeded)
                                                                                            $2,346
                                        2005                 $2,190
                                                                                       (Target Exceeded)




                                                       4
               Measure                FY                  Target                          Result
1.1.2: Three-year moving average of                                                         TBD
                                      2010                 $15.5
the return on investment resulting                                                     October 2011
from OIG’s health care oversight                                                            TBD
(Outcome)                             2009                 $16.6
                                                                                       October 2010
                                                                                            $17
                                      2008                 $13.5
                                                                                     (Target Exceeded)
                                                                                           $16.4
                                      2007                 $11.4
                                                                                     (Target Exceeded)
                                                                                           $14.6
                                      2006                 $11.9
                                                                                     (Target Exceeded)
                                                                                           $11.6
                                      2005                 $10.8
                                                                                     (Target Exceeded)

     OIG’s performance measures for expected recoveries and return on investment can be divided
     into three levels: (1) OIG oversight of all HHS programs, (2) OIG oversight of Medicare and
     Medicaid only, and (3) OIG oversight of all HHS non–Medicare and Medicaid programs.

     The expected recoveries resulting from OIG investigative and audit oversight averaged
     $3.41 billion per year for the 3-year period from FY 2006 through FY 2008 and exceeded all
     previous reporting periods and exceeded the prior reporting period by 8.5 percent. These
     results include an average of more than $2.05 billion in investigative receivables and
     $1.36 million in audit disallowances per year by OIG’s Office of Investigations and Office of
     Audit Services. The corresponding return on investment for the OIG’s oversight of all programs
     and operations for the same 3-year reporting period was $14.5:$1.

     In HHS and OIG, approximately 80 percent of annual expenditures are related to the Medicare
     and Medicaid programs, which are administered by the HHS Centers for Medicare & Medicaid
     Services. At OIG, oversight efforts dedicated to Medicare and Medicaid are enabled through
     two funding sources: the HCFAC program, which was established by the Health Insurance
     Portability and Accountability Act of 1996 (P.L. No. 104-191) and the Medicaid Integrity
     Program, which was established by the Deficit Reduction Act of 2005 (P.L. No. 109-171). Both
     programs were created with the purpose of strengthening Government efforts to combat fraud,
     waste, and abuse in the Medicare and Medicaid programs.

     The significant majority of OIG’s expected recoveries are composed of audit disallowances and
     investigative receivables resulting from Medicare and Medicaid oversight. For the 3-year period
     from FY 2006 through FY 2008, OIG’s expected investigative receivables and audit
     disallowances resulting from Medicare and Medicaid oversight averaged $2.04 billion and
     $1.22 billion per year, respectively. The result was a Medicare- and Medicaid-specific return on
     investment for OIG oversight of $16.8:$1.2

     The remaining approximately 20 percent of OIG’s budget comes from a single annual
     discretionary budget appropriation. In addition to using these discretionary funds for fulfilling
     OIG’s oversight mission in HHS, OIG also uses these resources to perform the growing number
     of required roles it fulfills within the Department. These roles include investigating cases of
     interstate nonpayment of child support, conducting the annual financial statement audits and
     Federal Information Security Management Act of 2002 compliance audits, and providing
     physical security for the Secretary of HHS. As a result of OIG’s efforts in these areas, the OIG



                                                     5
investigative receivables and audit disallowances averaged $4 million and $139 million per year,
respectively, during the FY 2006 through FY 2008 period. The result was a return on
investment of $3.4:$1 for OIG’s oversight HHS’ non-Medicare/Medicaid programs and
operations.

Summaries of the audits and investigations that reached resolution during FY 2008 and
contributed to these performance measures are included in the OIG semiannual reports to
Congress, which are located in the Publications section of the OIG Web site at
http://www.oig.hhs.gov/publications.asp.

Samples of the outcome-oriented descriptions contained in the semiannual reports follow.

Examples of Health Care Expected Recoveries

“Cephalon to Pay $425 Million Plus Interest for Marketing Three of its Drugs for Uses Not
Approved by the Food and Drug Administration.” As part of a global criminal, civil, and
administrative settlement, Cephalon, Inc., agreed to pay $375 million plus interest to resolve its
False Claims Act liability for the off-label marketing (that is, marketing for uses not approved by
the Food and Drug Administration) of the drugs Actiq, Gabitril, and Provigil; to plead guilty to a
misdemeanor violation of the Federal Food, Drug, and Cosmetic Act; and to pay a $50 million
criminal fine. Cephalon also agreed to enter a comprehensive 5-year CIA that contains several
unique provisions, including a requirement that Cephalon notify doctors about the settlement
and establish a way for doctors to report questionable conduct by sales representatives.

“Hospital Agrees to Pay $88.9 Million in One of the Largest Civil Fraud Recoveries Ever Against
an Individual Hospital.” Staten Island University Hospital agreed to pay nearly $89 million to
resolve allegations that it defrauded Medicare, Medicaid, and TRICARE (the military’s health
insurance program). The settlement resolved two separate lawsuits filed in the U.S. District
Court for the Eastern District of New York under the qui tam provisions of the False Claims Act
and two investigations conducted by the United States, including one initiated under OIG’s
Self-Disclosure Protocol. As part of the settlement, the hospital entered into a 5-year CIA.

Example of Oversight of HHS’ Non-Medicare/Medicaid Programs

Philadelphia County’s Foster Care Claims. After reviewing Pennsylvania’s claims for Title IV-E
reimbursement on behalf of Philadelphia County children in foster care for whom the per diem
rates were $300 or less, OIG estimated that from October 1997 through September 2002, the
State improperly claimed at least $56.5 million of the total $562.3 million (Federal share)
claimed. As a result, OIG recommended that the State refund $56.5 million and work with the
Administration for Children and Families to determine the allowability of $100 million related to
claims that included both allowable and unallowable services. The State disagreed with the
recommendations.

Target Setting for “Expected Recoveries and Return on Investment”

The estimated performance targets for expected recoveries and return on investment for
FY 2010 are lower than FY 2009 as a result of increases in OIG funding related to the American
Recovery and Reinvestment Act of 2009. The estimated targets, which will be adjusted at the
beginning of FY 2010, are lower than prior year outcomes because the Recovery Act funds that




                                                 6
      OIG received are designated for specific oversight activities that are not likely to contribute
      significantly to expected recoveries.


      Performance Measure for “Number of Accepted Quality and Management
      Improvement Recommendations”

      Summary of “Number of Accepted Quality and Management Improvement
      Recommendations”

      In addition to the direct financial recoveries described above, OIG reports the number of
      accepted quality and management improvement recommendations that resulted from audit and
      evaluation reports during a reporting period. This performance measure captures an important
      aspect of OIG’s efforts to identify and recommend corrections to systemic weaknesses in
      program administration and policy implementation. The measure also reflects a significant
      aspect of OIG’s contribution to improving the efficiency and effectiveness of the Department’s
      programs and operations.

      When OIG completes a report that includes recommendations for program managers to disallow
      costs or pursue administrative or policy improvements, HHS program managers have a fixed
      period of time to concur or nonconcur with each recommendation. The implementation of those
      recommendations may be affected by the availability of resources for implementation and other
      factors. As a result, some OIG recommendations are accepted by program managers but not
      implemented.

      Performance Reporting for “Number of Accepted Quality and Management
      Improvement Recommendations”

              Measure                   FY                   Target                             Result
1.1.3: Number of accepted quality and                                                            TBD
                                        2010                    73
management improvement                                                                      October 2011
recommendations (Outcome)                                                                        TBD
                                        2009                    73
                                                                                            October 2010
                                                                                                  85
                                        2008                    75
                                                                                          (Target Exceeded)
                                                                                                  88
                                        2007                    75
                                                                                          (Target Exceeded)
                                                                                                 116
                                        2006                    70
                                                                                          (Target Exceeded)
                                                                                                  73
                                        2005                   N/A
                                                                                         (Target Not In Place)

      During FY 2008, HHS Operating and Staff Divisions accepted 85 of OIG’s quality and
      management improvement recommendations. This result exceeded the annual target of 75 by
      13 percent.

      Summaries of the audits and evaluations that reached resolution during FY 2008 and
      contributed to this performance measure are included in the OIG semiannual reports to
      Congress, which are located in the Publications section of the OIG Web site at
      http://www.oig.hhs.gov/publications.asp.


                                                       7
Samples of the outcome-oriented descriptions contained in the semiannual reports follow.

Example of “Accepted Quality and Management Improvement Recommendations”

National Cancer Institute’s Monitoring of Research Project Grants. In a review of grants funded
by the National Cancer Institute (NCI) for at least 1 year during FY 2004 through FY 2006, we
found that all grant files had the required progress reports and evidence of agency review;
however, 41 percent of the progress reports were not received within the required timeframes.
NCI, which is part of the National Institutes of Health (NIH), funded more than 4,500 grants
totaling $3 billion during the period of our review to support research into the causes, diagnosis,
prevention, or treatment of cancer. NCI is responsible for monitoring grants, and grantees are
required to submit progress and financial reports. We also found the following:

   •   grantee financial reports were not monitored at the same level as the progress reports,
   •   five of the nine grant closeouts in our sample were not completed within the timeframes
       specified in departmental guidelines, and
   •   grant files did not always have the required documentation for third-party monitoring of
       research grants.

We recommended that NIH initiate earlier and more frequent followup with grantees to obtain
required documents, improve grant monitoring by annually verifying grantees’ self-reported fund
balances with external sources, develop an approach for financial reviews that is not based
solely on exception, and consistently document grantee correspondence and organize grant
files to assist NCI staff and third-party reviewers in following grantees’ actions from inception of
the grant to closeout. In its written comments to the report, NIH generally agreed with our
recommendations and described actions it planned to take to improve its monitoring of research
grants.




                                                 8
                        Agency Support for HHS Strategic Plan

OIG contributes to the HHS Strategic Plan directly through enforcement and compliance
activities and indirectly through its reviews and recommendations for making program
improvements that align to specific HHS strategic goals. The following table highlights the HHS
Strategic Goals with which OIG’s program integrity activities correspond most directly.

                                                                            OIG Goal 1: Make a positive
HHS Strategic Goals                                                         impact on HHS programs
1 Health Care Improve the safety, quality, affordability and accessibility of health care, including
behavioral health care and long-term care.
1.1 Broaden health insurance and long-term care coverage.                               No
1.2 Increase health care service availability and accessibility.
1.3 Improve health care quality, safety and cost/value.                                  X
1.4 Recruit, develop, and retain a competent health care workforce.                     No
2 Public Health Promotion and Protection, Disease Prevention, and Emergency Preparedness
Prevent and control disease, injury, illness and disability across the lifespan, and protect the public
from infectious, occupational, environmental and terrorist threats.
2.1 Prevent the spread of infectious diseases.
2.2 Protect the public against injuries and environmental threats.
2.3 Promote and encourage preventive health care, including mental
health, lifelong healthy behaviors and recovery.                                         X
2.4 Prepare for and respond to natural and man-made disasters.                           X
3 Human Services Promote the economic and social well-being of individuals, families, and
communities.
3.1 Promote the economic independence and social well-being of
individuals and families across the lifespan.                                       X
3.2 Protect the safety and foster the well-being of children and youth.
3.3 Encourage the development of strong, healthy, and supportive
communities.
3.4 Address the needs, strengths and abilities of vulnerable
populations.
4 Scientific Research and Development Advance scientific and biomedical research and
development related to health and human services.
4.1 Strengthen the pool of qualified health and behavioral science
researchers.
                                                                                No
4.2 Increase basic scientific knowledge to improve human health and
human development.
4.3 Conduct and oversee applied research to improve health and
well-being.                                                                      X
4.4 Communicate and transfer research results into clinical, public
health and human service practice.




                                                      9
OIG’s Underlying Contributions to the HHS Strategic Plan, FYs 2007–2012

OIG’s diverse portfolio of program integrity activities supports the Department’s responsible
stewardship of taxpayer money, which includes combating fraud, waste, and abuse in all HHS
programs. In particular, OIG is directed, by law, to “conduct independent and objective audits,
evaluations, analysis and investigations to assess the effectiveness and efficiency of policy and
program implementation.”3 Integrity and efficiency in HHS programs enables them to be more
effective. Greater effectiveness supports the efforts of each HHS Operating and Staff Division
and the expectations of the Secretary and the Administration. Although OIG’s targeted
oversight work may not directly address each HHS Strategic Goal and Objective, the work
conducted by OIG indirectly contributes to the accomplishment of all HHS Strategic Goals and
Objectives, which are consistent with OIG’s mission and the specific principles expressed in
Chapter 6 of the HHS Strategic Plan.

All three OIG performance measures, “expected recoveries,” “return on investment,” and
“number of accepted quality and management improvement recommendations,” provide
evidence of OIG’s contribution toward the Department’s commitment to responsible stewardship
of tax dollars.




                                               10
                                Full Cost Table for OIG4
                                       (Dollars in Millions)

                                                                        FY 2008     FY 2009 FY 2010
HHS Strategic Goals                                                      Actual     Enacted Estimate
1 Health Care Improve the safety, quality, affordability and accessibility of health care, including
behavioral health care and long-term care.
1.1 Broaden health insurance and long-term care coverage.
1.2 Increase health care service availability and accessibility.
1.3 Improve health care quality, safety and cost/value.                   $204        $304        $242
1.4 Recruit, develop, and retain a competent health care
workforce.
2 Public Health Promotion and Protection, Disease Prevention, and Emergency Preparedness
Prevent and control disease, injury, illness and disability across the lifespan, and protect the public
from infectious, occupational, environmental and terrorist threats.
2.1 Prevent the spread of infectious diseases.
2.2 Protect the public against injuries and environmental threats.
2.3 Promote and encourage preventive health care, including
                                                                            $6          $6          $7
mental health, lifelong healthy behaviors and recovery.
2.4 Prepare for and respond to natural and man-made disasters.             $10         $11         $13
3 Human Services Promote the economic and social well-being of individuals, families, and
communities.
3.1 Promote the economic independence and social well-being
                                                                           $19         $19         $19
of individuals and families across the lifespan.
3.2 Protect the safety and foster the well being of children and
youth.
3.3 Encourage the development of strong, healthier and
supportive communities.
3.4 Address the needs, strengths and abilities of vulnerable
populations.
4 Scientific Research and Development Advance scientific and biomedical research and
development related to health and human services.
4.1 Strengthen the pool of qualified health and behavioral
science researchers.
4.2 Increase basic scientific knowledge to improve human
health and human development.
4.3 Conduct and oversee applied research to improve health
                                                                           $8          $9          $11
and well-being.
4.4 Communicate and transfer research results into clinical,
public health and human service practice.
Total, Budget Authority                                                   $248        $350        $292




                                                11
The HHS Strategic Plan for FY 2007 to FY 2012 outlines the Department’s plan for advancing
the HHS mission of enhancing the health and well-being of Americans. The plan contains two
sections that describe (1) the Strategic Goals and Objectives deemed essential for achieving
the HHS mission, and (2) a set of value-based commitments intended to ensure that the
Department responsibly pursues the accomplishment of its goals. The Strategic Goals and
Objectives in the HHS Strategic Plan are programmatically focused and correspond to specific
HHS operating divisions and the programs and initiatives operated therein. The value-based
commitments, included in Chapter 6, outline the Department’s commitment to “responsible
stewardship and effective management” of HHS resources by committing to “effective resource
management” and “effective planning, oversight, and strategic communications.”

Distributing HHS’ costs by Strategic Objective in the FY 2007 to FY 2012 Strategic Plan is an
important way to convey HHS’ commitment to its goals, however not all HHS costs directly
support a specific Strategic Goal or Objective. Specifically, in OIG oversight and compliance
work the results of discreet oversight activities transcend a single HHS Strategic Objective by
addressing underlying threats to the financial integrity of programs and the well-being of
program beneficiaries. In these instances, full cost estimates provided in this table are very
rough approximations.

Where possible, OIG costs are segregated based on HHS Strategic Objective. In the instances
where it was not possible, costs are proportionately distributed across the HHS Strategic
Objectives for which OIG was able to report a contribution. The following list contains examples
of the functions that OIG performs that do not correspond directly to a HHS Strategic Goal or
Objective:

•   conduct annual Chief Financial Statement Officer (CFO) Audits;
•   conduct Federal Information Security Management Act (FISMA) audits;
•   review of single audits conducted on behalf of HHS; and
•   provide the security detail for the Secretary’s protection.

The FY 2008 and FY 2009 estimates provided in the Summary of Full Cost table are determined
based on a combination of prior year FTE usage and OIG’s planned discretionary work for
FY 2008 as expressed in the FY 2008 Work Plan. Because OIG will not release the FY 2009
Work Plan until September 2008, estimates of the distribution of OIG’s discretionary resources
across HHS Strategic Goals for FY 2009 are approximate. Furthermore, these estimates are
likely to change in response to specific requests for targeted program oversight made by the
Administration or Congress, or as the result of focusing events that highlights the need to
prioritize certain studies.




                                               12
                      Summary of Findings and Recommendations
                         from Completed Program Evaluations

    There were no program evaluations of OIG during FY 2008.



                                   Data Source and Validation

 Unique
                            Data Source                                    Data Validation
Identifier
1.1.1        OIG data systems that track audit              Estimates of expected recoveries are recorded
             disallowances, judicial and administrative     in OIG data systems when (1) program
             adjudications, and out-of-court settlements.   managers agree to disallow and pursue
                                                            recovery of questioned costs, (2) judicial and
                                                            administrative adjudications are established, or
                                                            (3) out-of-court settlements are agreed upon.
1.1.2        The numerator of the ROI calculation,          See Data Validation for measure 1.1.1.
             expected health care recoveries, is tracked
             in OIG data systems described above. The
             denominator of ROI calculation is the OIG
             operating budget in a given year.
1.1.3        OIG data systems track reports and             OIG follows an established process for
             recommendations.                               identifying and validating OIG-wide tracking
                                                            and reporting of accepted recommendations.




                                                     13
           Slight Deviations between Targets and Actual Results

The FY 2008 performance target for the following measures was set at an approximate level,
and the deviation from that level is slight. There was no effect on overall program or activity
performance.

     Program                              Measure Unique Identifier
       OIG            1.1 Three-year moving average of expected recoveries resulting from
                          health care oversight and enforcement5
        OIG           1.2 Three-year moving average of OIG health care
                          return-on-investment
        OIG           1.3: Number of accepted Quality and Management Improvement
                           recommendations



                       Discontinued Performance Measures

OIG does not have any discontinued performance measures to report.


               Disclosure of Assistance by Non-Federal Parties

OIG did not receive any material assistance from non-Federal parties in the preparation of the
FY 2010 Online Performance Appendix.




                                                14
Endnotes
1
    FY 2010 performance targets for key outcome measures 1.1.1 and 1.1.2 will be revised when two of the three
    years in the reporting period are completed (e.g., FY 2010 targets will be developed once FY 2009 data is
    validated). Likewise, the FY 2010 performance target for 1.1.3 may be revised when OIG completes the
    FY 2010 work planning process in September 2009, at which point OIG management will have sufficient
    planning information to estimate expected performance levels and related performance outcomes.
2
    This amount represents HHS investigative receivables only; receivables of other Federal agencies, the States,
    and other entities are not included here.
3
    Inspector General Act of 1978 P.L. No. 95-452, as amended.
4
    Amounts in this table do not reflect total actual OIG expenditures because this table excludes the effects of prior
    year appropriations with multi-year availability. For additional information about the OIG’s planned oversight
    efforts, view the FY 2009 Work Plan. For information about OIG’s accomplished oversight efforts, view the
    FY 2009 Semiannual Report to Congress. Both publications are located on the OIG web site at:
    http:/.oig.hhs.gov/publications.asp. FY 2009 budget authority includes amounts made available through the
    American Recovery and Reinvestment Act, which is available as multi-year funds.
5
    Expected recoveries include court-ordered investigative receivables and audit disallowances for which HHS
    program managers agree to pursue audit disallowances. We use a 3-year moving average to account for the
    year-to-year variation and unpredictability inherent in the audit and investigations processes.




                                                          15
